     FOLLOW-UP REVIEW OF
       TVA HOSPITALITY
          EXPENSES

                  Audit 2005-052F
                 February 23, 2006

Project Lead
Lisa H. Hammer
Table of Contents
Background
Objectives/Scope
Methodology
Findings
Recommendations
Management’s Comments and Our Evaluation
 Appendix
    Memorandum dated February 10, 2006, from Randy Trusley
     to Ben R. Wagner
Office of the Inspector General                         2
Audit 2005-052F
Background
 TVA’s Business Practice 7 (BP 7) states that TVA may provide the
  following types of hospitality:
     Meals and other food services.
     Room and equipment rental (associated with hospitality).
     Lodging, meals, and travel expenses for visitors, guests, and
       interviewees.
     Entertainment and noncash gifts associated with TVA-sponsored
       events.
     Flowers and decorations for TVA-sponsored events.
     Flowers sent due to death or major illness of a TVA employee or
       member of their immediate family, or external customers.
     Incidental expenses associated with a job related injury or death.




 Office of the Inspector General                                       3
 Audit 2005-052F
Background (cont’d)
 Hospitality expenditures are prohibited for any activity which would likely
  be perceived by a reasonable member of public as an improper or
  inefficient use of TVA resources.
 BP 7 places restrictions and monetary limits on approval authorities.
 Employees who violate the hospitality policy are subject to discipline.
 TVA’s Accounting Procedure 9 (AP 9) states that hospitality expenses
  are to be included under cost classification 25W.
In September 2004, the OIG issued a report on TVA’s hospitality program.
 We found no instances of noncompliance with BP 7. However, we noted
  that TVA’s practice of allowing TVA employees to engage in hospitality
  spending without more specific guidance increased the risk of harm to
  TVA’s reputation.
 TVA organizations did not accurately classify about $750,000 in
  expenses in accordance with AP 9.


  Office of the Inspector General                                         4
  Audit 2005-052F
Background (cont’d)
 The OIG recommended the TVA Controller implement procedures to
  improve the reporting, reviewing, and monitoring of hospitality
  expenditures across TVA organizations to ensure compliance with BP 7
  and accurate classification of hospitality expenses in compliance with
  AP 9.
 We further recommended the new procedures address each line
  organization's responsibility to appropriately document the justification
  for significant hospitality expenditures, including a documented
  reputation risk analysis to ensure the activity would not likely be
  perceived by a reasonable member of the public as an improper or
  inefficient use of TVA resources.
 The Controller agreed to take the following corrective actions.
        Coordinate a revision to BP 7 that required the use of a pre-approval
         form for all hospitality expenditures in excess of $500. This form would
         incorporate a reputation risk analysis including explanation of the
         proposed business purpose, the benefit to TVA, and any potential risk to
         TVA’s reputation.

  Office of the Inspector General                                               5
  Audit 2005-052F
Background (cont’d)
     Develop an on-line training module for employees who plan or approve
      hospitality. All Visa Gold, Visa Purchasing, and convenience check account
      holders must take the training in order to maintain their accounts.
The Controller also plans to test the approval, documentation, and
 classification of hospitality expenditures in conjunction with the
 Controller organization’s responsibilities for assessing internal controls
 over financial reporting under TVA’s Corporate Accountability and
 Disclosure Plan.




 Office of the Inspector General                                             6
 Audit 2005-052F
Objectives/Scope
Our objectives were to:
(1) Determine the types and level of expenditures for hospitality activities in
    TVA organizations.
(2) Assess whether these expenditures were in compliance with policies and
    procedures related to the hospitality program.
We reviewed TVA’s hospitality expenses, totaling $1.16 million, for the nine-
month period of October 1, 2004, through June 30, 2005.
 In addition, we included over $784,000 in expenses charged to cost classification
  25W for the three-month period of July 1 through September 30, 2005 (adjusted for
  one organization’s year-end events incorrectly charged to another cost
  classification) solely in order to compare FY 2003 expenses reported in the prior
  OIG review with FY 2005 expenses. However, we did not perform a detailed
  review of these expenditures.
This audit was performed in accordance with generally accepted government
auditing standards.


 Office of the Inspector General                                            7
 Audit 2005-052F
Methodology
To achieve our objectives, we:
 Identified hospitality expenses by reviewing (1) TVA gold card
   purchases, (2) TVA purchasing card and convenience check purchases,
   (3) miscellaneous payments, (4) hospitality expenses reimbursed
   through TVA’s Employee Reimbursement System, (5) TVA Facilities’
   Corporate Meetings database, and (6) documentation provided by TVA
   personnel.
 Reviewed selected documentation and explanations supporting the
   hospitality expenses from TVA organizations.
 Summarized hospitality expenses identified by TVA organization.
 Statistically selected 58 transactions from 1,745 gold card, purchasing
   card, and convenience check purchases (3.3 percent) that were not
   classified as 25W but appeared to be hospitality to determine whether
   the transactions were accurately classified.




 Office of the Inspector General                                     8
 Audit 2005-052F
Methodology (cont’d)
 Reviewed TVA procedures related to gold cards, purchasing cards,
  miscellaneous vouchers, employee reimbursements, employee
  recognition, and safety awards and recognition.
 Reviewed TVA’s hospitality training module for compliance with BP 7.
 Obtained and reviewed organizational hospitality procedures for
  compliance with BP 7.
 Used guidance provided by (1) BP 7 to determine if the organizations
  complied with TVA’s hospitality guidelines and (2) AP 9 to determine if
  these expenses were correctly classified.
 Determined whether individuals who had purchased hospitality during
  the period reviewed had completed the required hospitality training as
  reflected in TVA’s Automated Training Information System as of
  November 30, 2005.




  Office of the Inspector General                                       9
  Audit 2005-052F
Findings
1. TVA hospitality expenses for fiscal year (FY) 2005 totaled $1.94 million, a
   70 percent decrease from our prior review of FY 2003 expenses.
2. We found no instances of noncompliance with BP 7 with regard to the
   activities and type of expenditures allowed. However, we found that
   some confusion exists with regard to what is considered hospitality.
3. Sixteen purchasing and gold card cardholders that purchased hospitality
   did not participate in the required hospitality training.
4. TVA organizations did not accurately classify an estimated 37.93 percent
   of credit card transactions as hospitality in accordance with AP 9.
5. BP 7 does not address (1) purchases of hospitality with a purchasing
   card, or (2) use of TVA’s hospitality pre-approval form.




 Office of the Inspector General                                          10
 Audit 2005-052F
Finding 1 - Types and Level of Expenditures
During our September 2004 review of TVA hospitality, we identified
$6.50 million in FY 2003 hospitality expenses. We were able to identify
TVA hospitality expenses for FY 2005 totaling $1.94 million, a 70 percent
decrease from FY 2003 as compared to FY 2005.
We reviewed $1.16 million in hospitality expenses purchased using gold and
purchasing cards, convenience checks, miscellaneous vouchers, and
employee reimbursements. Types of hospitality purchased included:
     Restaurant, catering, and other food charges totaling $537,253.
     Charges to hotels totaling $218,172.
     Event tickets, such as admission to sporting events, totaling $91,596.




 Office of the Inspector General                                        11
 Audit 2005-052F
Types and Level of Expenditures
 For FY 2003, we identified $6,495,300 in hospitality expenses.
 TVA hospitality expenses for FY 2005 totaled $1,940,970, a decrease of
  $4,554,330 (70 percent).

       7,000,000       $6,495,300

       6,000,000

       5,000,000

       4,000,000
                                                     FY 2003
                                                     FY 2005
       3,000,000
                                     $1,940,970
       2,000,000

       1,000,000

               0


 Office of the Inspector General                                    12
 Audit 2005-052F
                          FY 2005 Hospitality Expenses
                           Compared to Prior Review
                                             (by
                                             (by Organization
                                                 Organization –– in
                                                                 in thousands)
                                                                    thousands)

$3,500
                                                                 $3,290


$3,000



$2,500



$2,000



$1,500
                                                                                      $1,226


$1,000                                                                    $854
                                               $703
                                                                                               $592

 $500                                                                                                      $427
         $373
                           $219
                                                                                                                  $183         $180
                                  $138                                                                                                $92      $77
                 $45                                   $14                                                                                           $23
   $0
         Administration   Communications &    Chief Financial    Chief Operating     Customer Service &      Economic        Human Resources     Other
           (Admin)           Government       Officer (CFO)      Officer (COO)       M arketing (CS&M )   Development (ED)        (HR)
                          Relations (C&GR)




                                                                FY 2003    FY 2005




 Office of the Inspector General                                                                                                                         13
 Audit 2005-052F
    TVA Hospitality Expenses Reviewed
                           (by Purchase Method)




                          $150,722


                    $102,248




                                         $903,972


                                                                  TOTAL TVA HOSPITALITY
                                                                   EXPENSES REVIEWED
                                                                        $1,156,942



                          Purchasing Card, Gold Card & Convenience Checks
                          Employee Reimbursement
                          Miscellaneous Voucher

Office of the Inspector General                                                   14
Audit 2005-052F
       TVA Hospitality Expenses Reviewed
                     (by Organization – in thousands)

$500

$450                                       $432


$400                                $381          TOTAL TVA HOSPITALITY
                                                   EXPENSES REVIEWED
$350
                                                          $1,156,942
$300

$250

$200

$150
                                                   $116
                   $95
$100
                                                              $67

$50      $34
                              $11                                      $21
 $0
        Admin     C&GR        CFO   COO    CS&M     ED        HR       OTHER




Office of the Inspector General                                         15
Audit 2005-052F
    TVA Hospitality Expenses Reviewed
                (Organizationally, by purchase method)
                        Purchasing/Gold/                  Misc.     Organization
       Organization       Convenience         ERS*      Vouchers       Total
               Admin              $ 13,429   $ 4,537     $ 15,605     $    33,571
               C&GR                 78,794      1,276      14,646          94,716
                CFO                 11,164       357           0           11,521
                COO                294,001     52,133      34,941         381,075
               CS&M                335,658     21,053      75,060         431,771
                  ED                91,478     18,992       5,454         115,924
                  HR                59,740      2,248       4,941          66,929
             OTHER                  19,708      1,652         75           21,435
                Total             $903,972   $102,248    $150,722     $1,156,942



     *ERS – Employee Reimbursement System



Office of the Inspector General                                                     16
Audit 2005-052F
         TVA Hospitality Expenses Reviewed
                                (Organizationally, by expense type)

                                                             Food/       Retail
                 Florists       Golf        Hotels1        Restaurants   Stores    Tickets     Other         Total

 ADMIN            $ 770         $ 297       $ -3442           $ 15,681    $ 555               $ 16,612   $    33,571

 C&GR                 502        3,599       11,310             53,775      120                 25,410        94,716

  CFO                 639                      1,952             8,544                            386         11,521

  COO             12,125           157       52,276            174,366    54,267                87,884       381,075

 CS&M               2,034       33,901      131,260            140,916     1,308    $77,371     44,981       431,771

   ED               1,084                    12,743             73,812     1,434     14,225     12,626       115,924

   HR                 435                      2,963            60,981       45                  2,505        66,929

OTHER                 675                      6,012             9,178                           5,570        21,435

 TOTAL           $18,264      $37,954      $218,172           $537,253   $57,729    $91,596   $195,974   $1,156,942



1Amounts    may include food and beverage costs.
2Net   credit of expenses made prior to period reviewed.




 Office of the Inspector General                                                                                     17
 Audit 2005-052F
Significant Hospitality Examples
CS&M spent $58,433 for the National Rural Electric Cooperative
 Association annual event held in spring of 2005. This amount
 included meals, lodging, and a San Diego Bay harbor excursion to show
 appreciation to distributors.
CS&M spent $39,696 on 6 season tickets to Memphis Grizzlies
 basketball games. These tickets were for entertaining distributors and
 customers in the Memphis area.
HR spent $41,594 in meals and refreshments for various New
 Employee Experience events held throughout the TVA region for
 new TVA employees.




  Office of the Inspector General                                         18
  Audit 2005-052F
Finding 2 - Compliance with Policy
We found no instances of noncompliance with BP 7 with regard to the
activities and type of expenditures allowed. However, we did find that
confusion exists among some people as to what is covered by the
policy.
  A TPS employee stated that a purchase at Wal-Mart was for
   employee recognition and therefore was not hospitality.
  An ED employee purchased a plant for use as decoration in a TVA
   exhibit. The employee stated that the plant was not considered
   hospitality, although BP 7 specifically states that decorations for
   TVA-sponsored events are hospitality.




 Office of the Inspector General                                         19
 Audit 2005-052F
Finding 3 – Hospitality Training
In 2004, TVA’s Controller developed a hospitality training module designed
to provide more information and training on how to purchase hospitality.
This training module is to be completed by (1) all employees who plan or
approve hospitality, (2) all Visa Gold and Visa Purchasing card holders and
convenience check account holders, and (3) all individuals who verify
credit card or convenience check statements.
 We identified 290 unique purchasers in our database of hospitality
  transactions and found that 16 purchasers (5.5 percent) had not taken
  the training but still retained their cards.




 Office of the Inspector General                                        20
 Audit 2005-052F
Finding 4 – Misclassified Expenses
 We statistically selected 58 credit card transactions not charged to cost
  classification 25W to determine whether they were classified in
  accordance with AP 9. We found 22 of the 58 transactions
  (37.93 percent) were actually hospitality.
     We estimate that of our universe of 1,745 non-25W transactions, 661 should
      have been classified as hospitality.
 Although TVA’s hospitality policy defines the activities to be considered
  hospitality, we believe some employees do not understand that materials
  purchased in support of those particular activities should be classified
  hospitality as well.
     A CS&M employee stated that aluminum pans and utensils purchased for a
      Retiree Christmas luncheon were classified correctly as 26A (Materials &
      Supplies) due to the nature of the purchase.
     C&GR purchases of helium for balloons at Riverbend were classified as 26A.




 Office of the Inspector General                                             21
 Audit 2005-052F
Finding 5 – Policy Clarification
We compared BP 7 with TVA’s hospitality training module. We found
that BP 7 does not address purchases of hospitality with a purchasing
card, while TVA’s hospitality training and Purchasing Card procedure
do address the use of the purchasing card.
  TPS’ Business Services has issued a memo stating that safety
   meals could be purchased with a purchasing card based on the
   content of the hospitality training module.
  Some of the statistically sampled transactions that should have
   been classified as 25W were made with a purchasing card and
   charged to the purchasing card default cost classification
   (26A – Materials and Supplies).




 Office of the Inspector General                                        22
 Audit 2005-052F
Finding 5 – Policy Clarification (cont’d)
TVA’s hospitality training module states that “Pre-approval is required for
hospitality events where expenditures are greater than $500 using TVA’s
Hospitality Pre-Approval form.” However, while BP 7 states that individuals
are to obtain pre-approval at certain management levels, depending on the
amount, the policy does not specifically address the use of the form.
We obtained forms, where available, from various TVA organizations and
found:
     One organization stated they had failed to use the form consistently but would
      do so in the future.
     One organization provided forms as requested; however, their Senior Vice
      President had signed and dated two of the forms several months after the
      event occurred.
     While the form provides space to assess the potential benefits and risks of the
      event to TVA’s reputation, assessment of benefits and risks is not required.
      All pre-approval forms reviewed included the benefits of the events but did not
      contain assessment of the risks.



  Office of the Inspector General                                               23
  Audit 2005-052F
Recommendations
We recommend the TVA Controller:
 Require any individual who may purchase hospitality to complete the hospitality
  training, not just those with purchasing or gold cards, or convenience check
  accounts.
 Ensure that hospitality expenses are accurately classified in accordance with
  AP 9.
 Revise BP 7 to include (1) use of form TVA 17901, Pre-approval of TVA
  Hospitality Expenditure, for all hospitality events or expenditures in excess of
  $500; (2) further clarification on what is considered hospitality (i.e., supplies
  purchased specifically for a hospitality event); and (3) use of a purchasing card
  to purchase hospitality.
 Revise form TVA 17901 to require inclusion of risk to TVA’s reputation of the
  hospitality being requested.




 Office of the Inspector General                                                  24
 Audit 2005-052F
Management’s Comments and Our
Evaluation
TVA’s Controller responded to our recommendations as follows:
 The Controller agreed to address our recommendation related to ensuring
  accurate classification of hospitality expenses by (1) further clarifying what is
  considered hospitality in BP 7 and the on-line hospitality training module,
  (2) periodically reviewing expenditures through testing of internal controls in
  related business processes, and (3) monitoring trends in hospitality expense
  through the monthly reporting process.
 The Controller agreed with our recommendation to revise BP 7 and will include
  specific references to TVA Form 17901 and the use of the purchasing card for
  hospitality spending. The Controller will also further clarify what types of
  expenditures are considered hospitality.
 The Controller agreed to revise TVA Form 17901 to make the reputation risk a
  separate field on the form and require a response.




  Office of the Inspector General                                                     25
  Audit 2005-052F
Management’s Comments and Our
Evaluation (cont’d)
 The Controller disagreed with our recommendation requiring hospitality training
  for any individual who purchases hospitality. However, the Controller committed
  to increased scrutiny of miscellaneous voucher requests for hospitality. This
  increased scrutiny, along with the periodic review of expenditures during testing
  of internal controls, alleviates our concerns over hospitality purchases by
  noncardholders.




  Office of the Inspector General                                               26
  Audit 2005-052F
